                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 T H S TREET, R OOM 0429
                                                                            K ANSAS C ITY , MO 64106

June 14, 2012

TO:             Lorraine M. Trexler
                Director, Division of Financial Advisory Services
                National Institutes of Health


FROM:           /Patrick J. Cogley/
                Regional Inspector General
                Office of Inspector General, Office of Audit Services, Region VII


SUBJECT:        The University of Utah Claimed Allowable Costs Under American Recovery and
                Reinvestment Act of 2009 Grant Numbers 1RC2LM010798-01 and
                5RC2LM010798-02 (A-07-11-06025)


The attached final report provides the results of our review of costs claimed by the University of
Utah for National Institutes of Health grants awarded under the provisions of the American
Recovery and Reinvestment Act of 2009.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or your staff may contact James Korn, Audit Manager, at (303) 844-7153 or
through email at James.Korn@oig.hhs.gov. Please refer to report number A-07-11-06025 in all
correspondence.


Attachment


cc:
Meredith Stein
Director, Division of Risk Management
National Institutes of Health
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    THE UNIVERSITY OF UTAH
   CLAIMED ALLOWABLE COSTS
 UNDER AMERICAN RECOVERY AND
   REINVESTMENT ACT OF 2009
GRANT NUMBERS 1RC2LM010798-01
     AND 5RC2LM010798-02




                        Daniel R. Levinson
                         Inspector General

                            June 2012
                          A-07-11-06025
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       INTRODUCTION

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
on February 17, 2009, provided $8.2 billion to the Office of the Director of the National
Institutes of Health (NIH) to help stimulate the economy through the support and advancement
of scientific research. Of the $8.2 billion, the Recovery Act transferred $7.4 billion to the NIH
Institutes and Centers and to the Common Fund. In addition, the Recovery Act provided
$400 million for comparative effectiveness research.

Recovery Act funds were used to award grants and cooperative agreements to research entities
including nonprofit and for-profit organizations, universities, hospitals, research foundations,
governments and their agencies, and occasionally to individuals.

Federal Requirements for National Institutes of Health Grantees

Federal regulations at 45 CFR part 74 provide for the uniform administrative requirements for
awards and sub-awards to institutions of higher education and other nonprofit and commercial
organizations. Pursuant to 45 CFR § 74.27, the allowability of costs incurred by institutions of
higher education are determined in accordance with the cost principles contained in 2 CFR
pt. 220 (formerly Office of Management and Budget (OMB) Circular A-21), Cost Principles for
Educational Institutions.

NIH provides additional guidance through the National Institutes of Health Grants Policy
Statement (Grants Policy Statement). The Grants Policy Statement provides NIH grantees, in a
single document, the policy requirements that serve as the terms and conditions of NIH grant
awards. The Grants Policy Statement provides general information and application information
and specifies the terms and conditions, applicable to particular types of grants, grantees, and
activities, that differ from, supplement, or elaborate on the standard terms and conditions.

Recovery Act Awards to the University of Utah

The University of Utah (the grantee), founded in 1850, is a metropolitan research institution
located in Salt Lake City, Utah. NIH awarded the grantee two Recovery Act grants (an original
and a subsequent award) totaling $2.8 million for research related to developing a master person
index that unambiguously identifies each person who has received health care in the State of
Utah. The grant period was September 30, 2009, through September 29, 2011; the grantee has
requested a third-year, no-cost extension, and consequently has not spent all of the grant funds.
As of September 29, 2011, the grantee had claimed $1,359,814 under the NIH grants.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by the grantee were allowable under the
terms of the grants and applicable Federal regulations.


                                                1
Scope

We did not perform an overall assessment of the grantee’s internal control structure. Rather, we
limited our evaluation of the grantee’s accounting system to obtaining an understanding of
internal control as it related to our specific audit objective.

We limited our review to costs the grantee claimed through September 29, 2011, for NIH grants
numbered 1RC2LM010798-01 and 5RC2LM010798-02. During the review period, the grantee
claimed $1,359,814. We reviewed $1,356,578 of these claimed costs. 1

We performed fieldwork at the grantee’s administrative office in Salt Lake City, Utah, in
September 2011.

Methodology

To accomplish our objective, we:

       •   reviewed applicable Federal laws, regulations, and other guidance;

       •   reviewed grant announcements, grant applications, and notices of grant awards;

       •   interviewed grantee officials to gain an understanding of the grantee’s accounting system
           and internal controls for claiming costs under the NIH grants;

       •   identified expended funds in the grantee’s accounting records as of September 29, 2011;

       •   summarized costs by cost category from expenditure reports;

       •   recalculated amounts on the September 29, 2011, expenditure report to verify
           mathematical accuracy;

       •   compared budgeted to actual expenditures;

       •   reviewed judgmentally selected costs claimed under the grants for allowability; and

       •   discussed the results of our review with grantee officials on January 26, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.



1
    We did not sample 100 percent of the costs claimed due to materiality.


                                                           2
                                  RESULTS OF REVIEW

Based on our review of judgmentally selected costs claimed under the grants, we determined that
the grantee’s claimed costs of $1,359,814 were allowable under the terms of the grants and
applicable Federal regulations. This report therefore makes no recommendations.




                                               3
